No. 21-

In the Supreme Court of the United States
UJ-EIGHTY CORPORATION, PETITIONER,
v.
CITY OF BLOOMINGTON BOARD OF ZONING APPEALS
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s Order of
April 15, 2020, all parties required to be served have been served with copies of the
foregoing PETITION FOR A WRIT OF CERTIORARI, via e-mail, this 23rd day of July
2021. All parties had previously consented to electronic service consistent with this Court’s
order of April 15, 2020.
Michael M. Rouker
City Attorney
City of Bloomington
401 N. Morton Street
Bloomington, IN 47404
roukerm@bloomington.in.gov
(812) 349-3426
I declare under penalty of perjury the foregoing is true and correct. Executed on July 23,
2021.

/s Stanton Jones
R. Stanton Jones
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
stanton.jones@arnoldporter.com
July 23, 2021

